Audit Report




OIG-11-068
BILL MANUFACTURING: Improved Security Over the NexGen
$100 Notes Is Necessary
May 13, 2011




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Findings and Recommendations .................................................................... 3

        Inadequate Security Over NexGen $100 Finished Notes and
           WIP Sheets at ECF ............................................................................. 3

        Inadequate and Inconsistent Retention Requirements for Security
           Video and Digital Recordings ............................................................... 5

        Lack of Updated OPSEC Plans to Address Current Issues
           With the NexGen $100 Products at ECF ............................................... 5

        Recommendations................................................................................... 6


Appendices

Appendix 1: Management Response................................................................... 10
Appendix 2: Major Contributors to This Report .................................................... 13
Appendix 3: Report Distribution ......................................................................... 14


Abbreviations

BEP                     Bureau of Engraving and Printing
ECF                     Eastern Currency Facility
FRB                     Board of Governors of the Federal Reserve System
JAMES                   Department of the Treasury Joint Audit Management Enterprise
                            System
OIG                     Office of Inspector General
OPSEC                   Operational Security
WCF                     Western Currency Facility
WIP                     work-in-process




                        Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)           Page i
         This Page Intentionally Left Blank




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page ii
                                                                                         Audit
OIG
The Department of the Treasury
                                                                                         Report
Office of Inspector General




                        May 13, 2011

                        Larry Felix
                        Director
                        Bureau of Engraving and Printing

                        As part of our on-going audit of the Bureau of Engraving and
                        Printing’s (BEP) production process for the NexGen $100 notes,
                        the purpose of this report is to convey our observations regarding
                        physical security over the NexGen $100 notes. In brief, we noted
                        deficiencies related to the physical security over the NexGen $100
                        finished notes and work-in-process (WIP) sheets 1 at both BEP’s
                        Eastern Currency Facility (ECF) in Washington, D.C., and Western
                        Currency Facility (WCF) in Fort Worth, Texas. We found
                        (1) inadequate security over finished notes and WIP sheets at ECF,
                        (2) inadequate and inconsistent retention requirements for security
                        video and digital recordings at both ECF and WCF, and (3) lack of
                        updated Operational Security (OPSEC) plans to address security
                        matters over NexGen $100 finished notes and WIP sheets at ECF.
                        While our audit of BEP’s production of the NexGen $100 notes is
                        on-going, we consider these matters serious enough to warrant
                        immediate corrective action by BEP. Accordingly, we are making
                        three recommendations in this report to improve BEP facilities’
                        security over NexGen $100 finished notes and WIP sheets.

                        In a written response, BEP management provided their corrective
                        actions taken or planned to implement the recommendations. We
                        believe these actions are responsive to the intent of our
                        recommendations and we verified the corrective actions that have
                        been implemented as of the date of this report. The management
                        response is included as appendix 1.


1
  NexGen $100 notes are produced using currency paper sheets that allow for 32 “subjects” per sheet
in the initial stages of production. In the final stages of production, the 32-subject sheets are cut into
16-subject sheets, printed with seals and serial numbers, and then cut into finished note form. This
report uses the term “sheets” when referring to WIP and “notes” when referring to finished NexGen
$100s.


                        Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)       Page 1
The Treasury Office of Inspector General’s Office of Audit and
Office of Investigations are jointly performing this audit to address
significant problems encountered by BEP in the production of the
NexGen $100s and in response to a request from the Department
of the Treasury Assistant Secretary for Management, Chief
Financial Officer, and Chief Performance Officer. The objectives of
our audit are to assess (1) the planning and implementation of the
production process and the events that led to the problems in the
production process; (2) the physical security over the notes that
have been produced; (3) BEP’s plans for the disposition of those
notes; and (4) BEP’s actions, taken and planned, to address the
production problems. We began our audit in December 2010. As
part of our audit which is the basis for this report, we (1) observed
security practices in place at the ECF and WCF production
facilities; (2) interviewed key BEP personnel involved with the
production and security of the NexGen $100 product; and
(3) examined policies, procedures, and other documentation
relating to physical security of the NexGen $100 product.

We conducted our work in connection with this interim report in
accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions in this interim
report.

We plan to report on the other stated audit objectives going
forward. As part of that work, we also plan to continue to monitor
the physical security over the NexGen $100s.




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 2
Findings and Recommendations

            Inadequate Security Over NexGen $100 Finished Notes
            and WIP Sheets at ECF

            Security Weakness Over Finished Notes

            According to BEP written policy, finished notes remaining in a
            production area should be kept to the absolute minimum necessary
            to continue operations. If finished notes are stored in a production
            area, the notes should be stored in a security cage under lock and
            seal and should be moved as soon as possible. We observed that
            ECF stored approximately 54.4 million finished NexGen $100 notes
            in a production area. The notes were wrapped in protective plastic,
            but were not stored in a locked security cage. As of January 2011,
            some notes had been stored in the area for over 9 months.
            Normally, finished note products are moved to a secure, limited-
            access vault shortly after production.

            BEP officials told us that the finished notes were stored in this
            production area due to limited available storage capacity and BEP’s
            opinion that existing security measures and controls in place were
            adequate. While we acknowledge that BEP has certain security
            measures and controls in place for all of its production and storage
            areas, we believe the unique circumstance created by the
            production problems and resulting long-term storage requirements
            of the NexGen $100s warrants special consideration. Storing
            finished notes in a production area for an extended period of time
            is in violation of BEP policy and no waiver for this action was
            documented. Additionally, we believe the finished NexGen $100
            notes stored in the production area are at increased risk of theft
            and loss when compared to other finished notes stored in a secure,
            limited-access vault because approximately 225 employees have
            access to this production area compared to 21 employees who
            have access to the vault.

            Another matter of concern is that this particular production area
            does not fully meet the criteria established by BEP for a secured
            production area because the 26 windows in the area lack
            protective security features. BEP security officials told us they did


            Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 3
                      not request a waiver for this policy exception because of other
                      security measures in place. For example, the 26 windows that lack
                      protective features are on the third floor and there have been no
                      security incidents that have occurred in the past related to these
                      windows. Nevertheless, we believe this is a matter that requires
                      management attention, and the rationale for any noncompliance
                      with existing security requirements should be clearly articulated
                      and documented.

                      Security Weakness Over WIP Sheets

                      According to BEP policy, production areas are not to be used for
                      the long-term storage of WIP. At ECF, we observed approximately
                      4 million NexGen $100 WIP sheets 2 stored in a production area
                      rather than in a more secure, limited-access storage area. As of
                      January 2011, some of the WIP sheets had been stored in the
                      production area for about 4 months. Storing WIP sheets in a
                      production area for an extended period of time is in violation of BEP
                      policy and no waiver for this action was documented.

                      BEP officials told us that they did not move the sheets because
                      they felt that the security measures and controls in place were
                      adequate. While we acknowledge that BEP does have a level of
                      security measures and controls in place for all of its production and
                      storage areas, we believe the unique circumstance created by the
                      production problems and resulting long-term storage requirements
                      of the NexGen $100 WIP sheets warrants special consideration. In
                      this regard, approximately 460 employees currently have legitimate
                      and routine access to the product on a daily basis. Additionally, the
                      WIP sheets are at increased risk of undetected theft and loss
                      because not all regular production process reconciliations are being
                      performed.




2
 The approximately 4 million WIP sheets equal about 127 million notes when finished. In the production
area in question, the sheets do not yet include seals and serial numbers and are still in uncut form.



                      Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)    Page 4
Inadequate and Inconsistent Retention Requirements for
Security Video and Digital Recordings

The length of time BEP currently retains security video tapes and
digital recordings is not adequate given the potential long-term
storage of the NexGen$100 products. BEP’s written policy requires
retention of recordings for 7 years. Despite this policy, BEP officials
told us that WCF currently retains recordings for 1 year for WIP
and 3 years for finished goods, and ECF retains all recordings for
3 years. Current retention practices (1) do not comply with
established policies, (2) are inconsistent between the two
production facilities, and (3) are based on assumptions that
products are moving through a normal production cycle and
promptly delivered to the Federal Reserve System. At this time, the
Federal Reserve System has not accepted delivery of the NexGen
$100 finished notes and the estimated storage timeframe is
unknown.

Lack of Updated OPSEC Plans to Address Current Issues
With the NexGen $100 Products at ECF

BEP policy requires written OPSEC plans be established for
sensitive and security areas that document security controls and
physical security measures to protect bureau resources and
products. Additionally, these OPSEC plans are to be reviewed
annually and re-certified by security and operational managers and
updated as needed to address security concerns.

BEP security officials stated that OPSEC plans for the ECF
production areas containing the stored NexGen $100s discussed
above are not current and have not been re-certified on an annual
basis. Additionally, no changes have been made to the plans to
address specific concerns regarding the production problems and
long-term storage of the NexGen $100s. Until such time as BEP
and the Federal Reserve System determine the disposition of the
notes, BEP faces a number of unknowns in terms of storage
timeframes and available storage capacity.

According to BEP security officials, the reason the OPSEC plans
were not current is because of policy revisions. Among other


Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 5
things, security personnel stated they are implementing a new
quantitative risk assessment methodology including surveys and
vulnerability assessments for each area. Once an area is evaluated,
a written security plan will be completed and a specific Area
Security Plan will be developed and posted in the operational area.
BEP security officials also stated that as a result of our review, ECF
elevated the storage issue related to the NexGen $100s to the top
of its list of areas to be evaluated.

Recommendations

We recommend that the Director of BEP do the following:

1. Safeguard all NexGen $100 finished notes and WIP sheets at
   ECF in secured nonproduction areas that have limited and
   controlled access. To the extent practicable, the finished notes
   and WIP sheets should be stored in one location.

   Management Response

   To provide additional security, BEP (1) relocated finished notes
   into a Category I vault, (2) moved WIP sheets (except the
   amount staged for normal production purposes) into Category I
   and III vaults, and (3) documented decisions made throughout
   the unfolding of this matter in a security plan covering
   processing of NexGen $100 work. BEP stated that at this time,
   it is not practicable for all NexGen $100 sheets and finished
   notes to be stored in one location. However, appropriate offices
   are evaluating vault space options and updating BEP’s 2008
   vault study, which may provide options to increase vault space.

   BEP also emphasized that while it had taken these steps to
   further enhance security over NexGen $100 work in response to
   the audit recommendation, it is BEP’s position that NexGen
   $100 finished notes and WIP sheets within BEP facilities were
   secure, even for the longer duration that NexGen product
   remained in production areas while production decisions were
   pending. BEP states the decision to store the finished notes in a
   production area was made after careful consideration and was
   based on multiple compensating controls in place, such as


Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 6
   cameras, access control systems, locking mechanisms, etc.
   BEP officials stated that the area is not readily accessible to
   external intruders due to its location. Persons allowed in this
   production area must clear through a stringent suitability
   determination and background investigation with some of the
   highest standards in the federal government. BEP restricts
   access to the area to those cleared individuals with direct work
   responsibilities in the area. Finally, BEP officials stated that
   finished notes stored in the production area were stringently
   protected and inventoried on a periodic basis by production and
   compliance personnel.

   OIG Comment

   The actions taken by BEP are responsive to the intent of the
   recommendation and we verified that the finished notes and
   WIP sheets have been moved to secured vaults and storage
   areas.

2. Evaluate the policy and practices to retain video and digital
   recordings at ECF and WCF in light of the potentially long-term
   storage needs of the NexGen $100 finished notes and WIP
   sheets.

   Management Response

   BEP will retain already recorded NexGen video footage until the
   work is accepted by the FRB, destroyed, or another decision is
   made by the BEP Director. In addition, BEP is evaluating
   retention options with its new digital video storage system.

   OIG Comment

   BEP’s planned actions generally meet the intent of the
   recommendation. However, BEP will need to establish an
   estimated date for completing its planned actions and record
   that date in the Department of the Treasury’s Joint Audit
   Management Enterprise System (JAMES). In addition, BEP
   should formalize changes in retention dates as policy.




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 7
3. Ensure that written security risk assessments and area security
   plans at ECF are updated and regularly re-certified in accordance
   with BEP policy. In addition, the plans should appropriately
   address security over NexGen $100 finished notes and WIP
   sheets.

   Management Response

   BEP has been working to establish a security risk assessment
   program and expects the formal policy to be signed shortly. As
   part of BEP’s risk analysis methodology, comprehensive security
   vulnerability assessments (security surveys) are conducted and
   security measures for a given section are derived based on the
   risk designation of the asset(s) it contains. These assessments
   replace OPSEC plans required under current policy. During fiscal
   year 2010, BEP completed numerous security surveys at ECF.
   During fiscal year 2011, BEP will conduct additional
   assessments, which cover the remaining areas requiring study.
   Once completed, the equivalent of the previous OPSEC Plan will
   be on file for every section and any changes required to Area
   Security Plans will be made and refresher training provided to
   affected BEP personnel. Areas containing the NexGen $100s
   have been moved to the top of the risk assessment schedule.

   OIG Comment

   BEP’s planned actions meet the intent of the recommendation.
   We also found that in May 2011, BEP issued policies for
   security risk assessments and area security plans that replace
   the previous OPSEC plan requirements. That said, we consider
   this recommendation to be open until BEP completes its security
   risk assessments and area security plans for areas containing
   the NexGen $100s. BEP will need to establish an estimated
   date for completing these actions and record that date in
   JAMES.

                                ******

   We appreciate the courtesies and cooperation extended by your
   staff as we inquired about these matters. Major contributors to
   this report are listed in appendix 2. A distribution list for this

Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 8
   memorandum is provided as appendix 3. If you wish to discuss
   this report, you may contact me at (202) 927-5904.

      /s/
   Kieu T. Rubb
   Director, Procurement and Manufacturing Audits




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 9
Appendix 1
Management Response




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 10
Appendix 1
Management Response




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 11
Appendix 1
Management Response




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 12
Appendix 2
Major Contributors to This Report




Office of Audit

Deborah L. Harker, Audit Manager
Gregory J. Sullivan, Jr., Auditor-in-Charge
Elisa J. Pegher, Program Analyst
Theresa A. Cameron, Referencer

Office of Investigations

Sonja L. Scott, Special Agent
Jerome S. Marshall, Special Agent




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 13
Appendix 3
Report Distribution




The Department of the Treasury

Deputy Secretary
Treasurer of the United States
Assistant Secretary for Management, Chief Financial
   Officer, and Chief Performance Officer
Director, Office of Strategic Planning and Performance
   Management
Director, Office of Accounting and Internal Control

Bureau of Engraving and Printing

Director
Associate Director (Chief Financial Officer)
Audit Liaison

Office of Management and Budget

OIG Budget Examiner




Improved Security Over the NexGen $100 Notes is Necessary (OIG-11-068)   Page 14
